                                          INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                           400 ARMY NAVY DRIVE
                                      ARLINGTON, VIRGINIA 22202-4704




                                                                                          December 4,2003

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
              MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor's Report on the Air Force General Funds Fiscal Year 2003
         Principal Financial Statements (Report No. D-2004-026)


The Chief Financial Officers Act of 1990, as amended, &quires the Inspector General of the
Department of Defense to audit the accompanying Consolidated Balance Sheet of the Air Force
General ~ u n &as of September 30,2003 and 2002, the related Consolidated Siatements of Net
Cost and Changes in Net Position, and the Combined Statements of Financing and Budgetary
Resources for the fiscal years then ended. These financial statements are the responsibility of
Air Force management. The Air Force is also responsible for implementing effective internal
control and for complying with laws and regulations. We are including the required reports on
internal control and compliance with laws and regulations.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Air Force (Financial Management and Comptroller)
acknowledged that the Air Force previously identified material weaknesses in internal control
and instances of noncompliance with laws and regulations that continue to affect the current
period. As a result of those conditions, management acknowledged that the financial data
reported in the financial statements were unreliable. Therefore, we did not perform auditing
procedures to support material amounts on the financial statements. In addition, other auditing
procedures were not performed because Section 1OO8(d) of the FY 2002 National Defense
Authorization Act requires the Inspector General of the Department of Defense to perform only
the audit procedures required by generally accepted government auditing standards that are
consistent with the representations made by management. These material deficiencies also affect
the reliability of certain other information contained in the accompanying Management's
Discussion and Analysis and certain other information-much of which is taken from the same
data sources as the principal financial statement^.^ These deficiencies would have precluded an


' The Ofice of Management and Budget requires a Consolidated Statement of Financing, instead of the Combined
 Statement of Financing prepared by the Air Force.
* Other information includes the Supporting Consolidating and Combining Financial Statements, Required
 Supplementary Stewardship Information, Required Supplementary Information, and Other Accompanying
 Information.



    A regular Statement and Account of the Receipts and Expenditures of all public Money
   shall he published from time to time. -Constitution of the United States, Article I, Section 9
audit opinion. As described above, we are unable tocexpress, and we do not express, an opinion
on the referenced financial statements and other information.

Summ.ary of Internal Control
In planning and performing our audit, we considqed the Air Force internal control over financial
reporting and compliance. We did this to determine our procedures for auditing the financial
statements and to comply with Office of Management and Budget guidance, but not to express
an opinion on internal control. Accordingly, we do not express an opinion on internal control
over financial reporting and compliance because previously identified reportable conditions; all
of which are material, continue to exist in the following areas.
        Air Force financial management systems,
   *    Intragovernmental Transactions,
        Fund Balance With Treasury and problem disbursements,
        accounting entries,
        operating materials & supplies,
        government furnished material and contractor acquired material,
        General Property, Plant, & Equipment (PP&E),
        Environmental Liabilities,
   0    Statement of Net Cost, and
        Statement of Financing.

A material weakness is a condition that precludes the entity's internal control from providing
reasonable assurance that misstatements, losses, or noncompliance that are material in relation to
the financial statements would be prevented or detected on a timely basis. Our internal control
work would not necessarily disclose all material weaknesses. See the Attachment for additional
details on material internal control weaknesses.

Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of the applicable laws and
regulations was limited because management acknowledged instances of noncompliance, and
previously reported instances of noncompliance continue to exist in the following areas.
        Federal financial management systems requirements,


 Reportable conditions are matters corning to the auditor's attention that, in his or her judgment, should be
 communicated to management because they represent significant deficiencies in the design or operation of internal
 control, which could adversely affect the organization's ability to initiate, record, process, and report financial data
 consistent with the assertions of management In financial statements.


    A regzdur Statement and Account ofthe Receipts and Expenditures of all public Money
   shall he published from time to time. --Constitution of the United States. Article I, Section 9
        generally accepted accounting principles, and
        United States Government Standard General Ledger.

Therefore, we did not determine whether Air.Force was in compliance with all applicable laws
and regulations related to financial reporting. See the Attachment for additional details on
compliance with laws and regulations.
In order for DoD to comply with statutory reporting requirements and applicable financial
systems requirements, the Under Secretary of Defense (Comptrol1er)lChief Financial Officer is
developing the DoD-wide Business Enterprise Architecture. Until the architecture is fully
developed and implemented, the Air Force will be unable to fully comply with the statutory
reporthg requirements.
We caution that other noncompliance may have occurred and not been detected. Further, the
results of our limited procedures may not be sufficient for other purposes. Our objective was not
to express an opinion on compliance with applicable laws and regulations.

Management Responsibility
Management is responsible for:
        preparing the financial statements in conformity with generally accepted accounting
        principles,
   0    establishing, maintaining, and assessing internal control to provide reasonable assurance
        that the broad control objectives of the Federal Managers' Financial Integrity Act
        (FMFIA) of 1982 are met,
   0    ensuring that Air Force financial management systems substantially comply with Federal
        Financial Management Improvement Act (FFMIA) of 1996 requirements, and
        complying with applicable laws and regulations.




                                      Paul J. Granetto, CPA
                                             Director
                                    Defense Financial Auditing
                                              Service


       Attachment
       as stated



    A regular Statement and Account of the Receipts and Expeaditures of all public Money
   shall he published from time to time. -Constitution of the United States. Article I, Section 9
               9
                          Reports on Internal Control and
                      ~ o m ~ l i a n with
                                      c e Laws and Regulations

                                       Internal Control
Management is responsible for implenienting effective internal control and for providing
reasonable assurance that accounting data are accumulated, recorded, and reported properly; and
that assets are safeguarded. We did not perform tests of internal control over financial reporting
for the Air Force, and we did not obtain sufficient evidence to support or express an opinion on
internal control. We limited our audit tests because previously identified reportable conditions,
all of which are material, continue to exist in the following areas. These material internal control
weaknesses significantly impair the ability of Air Force to detect and prevent fraud or theft of
assets. A high risk of material misstatements willkontinue to exist until the internal control
deficiencies are corrected.
 Air Force Financial Management Systems
       The Air Force had not implemented the U.S. Government Standard General Ledger at the
       transaction level, therefore, internal control over recording transactions was not sufficient
       to ensure that a11 valid transactions were accurately recorded. In addition, all recorded
       transactions were not accurately reported in the financial statements. For details, see
       Note 1.D. to the financial statements.
       The financial management systems could not report financial data in compliance with
       generally accepted accounting principles and OMB Bulletin 01-09, "Form and Content of
       Agency Financial Statements," September 25,2001, due to limitations in the financial
       management processes and systems. For details, see Note 1.A. to the financial
       statements.
       The Air Force generally records transactions on a cash (budgetary) basis and not on an
       accrual basis as required by generally accepted accounting principles. The amounts
       presented in the Consolidated Statement of Net Cost are based on budgetary obligations
       and disbursements and collection transactions, and are adjusted b record known accruals
       for major items and known imputed expenses. For details, see Note 1.D. to the financial
       statements.
       The Air Force does not calculate or recognize an allowance for estimated uncollectible
       amounts with other Federal agencies. For details, see Note 1.KJ to the financial
       statements.
  Intragovernmental Transactions
       Air Force internal control was not sufficient to ensure that all intragovernmental accounts
       receivable, accounts payable, and reveque transactions were eliminated. For details, see
       Note 1.G. to the financial statemmts.
       The Air Force was unable to reconcile intragovernmental accounts receivable or accounts
       payable, or reconcile intragovernmental revenue balances with its trading partners. For
       details, see Notes 5, 12, & 19.E. to the financial statements.


                                                                                        Attachment
Fund Balance With Treasury and Problem Disbursements, Collections, & Obligations
                                             5

      At the end of FY 2003, the Air Force had $1.13 billion in problem disbursements and in-
      transit disbursements that have been reported by a disbursing station to the Department of
     .the Treasury, but have not yet been precisely matched against the specific source -
      obligation. Among other financial statement line items, this condition adversely affects
      the reliability of the reported value of the Air Force General Funds Balance Sheet line
      item, Fund Balance with Treasury. For details, see Note 21.B. to the financial
      statements.
     Internal control was not suficient to provide obligations incurred and recoveries of prior
     year obligations in accordance with governing directives. For details, see Note 2 1.A. to
   . the financial statements.

     Internal control over matching disbursements to respective obligations, and collections to
     respective receivables, was not sufficient to ensure all disbursements were valid and that
     accounts receivable and accounts payable balances were accurately stated. For details,
     see Note 24.B. to the financial statements.
Accounting Entries
The Air Force had not implemented adequate procedures to support and document all journal
vouchers in the Air Force General Funds. For details, see Note 1.A. to the financial statements.
Operating Material and Supplies
The Air Force had not recorded operating materials and supplies in conformance with
Statement of Federal Financial Accounting Standards No. 3, "Accounting for Inventory and
Related Property." Internal control was not sufficient to ensure that operating materials and
supplies were correctly reported. For details, see Note 9.B. to the financial statements.
Government Furnished Material and Contractor Acquired Material
Internal control was not sufficient to include all contractor-controlled, Government-furnished
material in the financial records. For details, see Note 1.O. and 9.B. to the financial statements.
General Property, Plant, & Equipment                                       J




     The Department of Defense has not reported the cost of Military Equipment in
     accordance with generally accepted accounting standards due to an absence of detailed
     cost information for Military Equipment acquired over many decades. For details, see
     Note 10 to the financial statements.
     The Air Force has not implemented adequate controls to ensure real property account
     balances are accurate. Real property accounts were adjusted without supporting
     documentation and depreciation expense was not calculated properly.
Environmental Liabilities
Material uncertainties exist related to environmental cleanup liabilities due to incomplete
documentation for cleanup costs. For details, see Note 14 to the financial statements.
  Statement of Net Cost
 The AirForce does not accumulate cost information as required by generally accepted
 accounting principles. The Air Force identifies costs in the Consolidated Statement of Net
 Cost based on the major appropriation groups funded by Congress instead of being based on
 major programs and activities as set forth in Statement of Federal Financial Accounting
 Standards No. 4, "Managerial Cost Accounting Concepts and Standards for the Federal
 Government." For details, see Note 1.D. to the financial statements.
  Statement of Financing
       The Air Force cannot reconcile budgetary data with proprietary expenses and assets
      - capitalized without making unsupported adjustments to resolve differences. For details,
       see Note 22 to the financial statements. In addition, the Air Force prepared the Statement
       of Financing on a combined basis, instead of the consolidated basis required by OMB
       Bulletin No. 01-09, "Form and Content of Agency Financial Statements."
       Other financing 'sources reported by the Air Force did not include non-monetary support
       provided by U.S. Allies for common defense and mutual security. For details, see Note
       1.E. to the financial statements.


                        Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial
reporting. Our work to determine compliance with selected provisions of the applicable laws
and regulations was limited because management acknowledged instandes of noncompliance,
and previously reported instances of noncompliance continue to exist. Therefore, we did not
determine whether Air Force was in compliance with selected provisions of all applicable laws
and regulations related to financial reporting. Our objective was not to express an opinion on
compliance with applicable laws and regulations.
The Air Force is required to comply with the following financial management systems reporting
requirements.
The Federal Financial Management Improvement Act of 1996 requires Air Force to establish and
maintain financial management systems that comply substantially with the Federal financial
management system requirements, applicable generally accepted accounting principles, and the
United States Government Standard General Ledger at the transaction level. In addition, the
Federal Managers' Financial Integrity Act of 1982 requires Air Force to evaluate the systems and
to annually report whether those systems are in compliance with applicable requirements. The
Chief Financial Officers Act of 1990 requires DoD to prepare a 5year Financial Management
Plan describing activities that DoD will conduct during the next 5 years to improve financial
management.
The Air Force acknowledged that many of its critical financial management and feeder systems
do not comply substantially with the Federal financial management systems requirements,
generally accepted accounting principles, and the U.S. Government Standard General Ledger at
the transaction level. In an attempt to comply with statutory reporting requirements and
applicable financial systems requirements, DoD is developing a DoD-wide Business Enterprise
Architecture. The architecture is intended to provide a "blueprint" of the Department's financial
management systems and processes to initiate a comprehensive financial management reform
effort. Until the architecture is fully developed and implemented, Air Force will be unable to
fully comply with the statutory reporting requirements. Therefore, we did not perform tests of
compliance for these requirements.



                                    Audit Disclosures
Based on audit procedures performed, we obtained a limited understanding of internal control.
However, we were unable to obtain sufficient understanding of internal control in order to plan
the audit and to determine the nature, timing, and extent of tests to be performed.

The Assistant Secretary of the Air Force (Financial Management and Comptroller)
acknowledged to us on June 20,2003, that the Air Force General Funds financial management
systems do not comply substantially with Federal financial management system requirements,
generally accepted accounting principles, the U.S. Government Standard General Ledger at the
transaction level. These deficiencies in Air Force critical financial feeder systems limited its
ability to present information accurately and in conformance with generally accepted accounting
principles. As a result, we were unable to obtain adequate evidential matter to form or express
an opinion on the financial statements, internal control, and compliance with laws and
regulations. Furthermore, we were unable to design the audit to provide reasonable assurance of
detecting material misstatements resulting from violations of contracts or grant agreements that
have a direct and material effect of financial statement amounts.

In addition, we were unable to conduct sufficient audit follow-up work related to the deficiencies
identified in the FY 2002 Air Force financial statement audit. Finally, we did not perform audit
tests of Air Force compliance with certain provisions of the Antideficiency Act, Debt Collection
Improvement Act, Federal Credit Reform Act, Pay and Allowance System for Civilian
Employees, and the Prompt Payment Act.

This report does not include recommendations to correct material control weaknesses and      "
instances of noncompliance because previous audit reports contained recommendations for
corrective actions.
